TA

OCKLE

2311 Douglas Street L e g a 1 B rie fs E-Mail Address:

Omaha, Nebraska 68102-1214 E contact@cocklelegalbriefs.com
St. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 21-143

RAYMOND RODR{GUEZ-RIVERA,
Petitioner,
Vv.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE PUERTO RICO ASSOCIATION OF CRIMINAL DEFENSE LAWYERS IN SUPPORT
OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 3627 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3 Ist day of August, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

  

Leos Ouduw-h. Chl

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
Affiant

‘My Comm. Exp. September §, 2023

 

8

 

Notary Public
